                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
April 1, 2006 - September 30, 2006
      Fiscal Year 2006 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsig.gov
                                                         &
                                  COMMUNITY
                                  SERVICE=



October 3 1,2006



I am pleased to present our Semiannual Report to Congress and share with you the results of
the Office of Inspector General's (OIG) audits, investigations and proactive initiatives for the
period April 1,2006, to September 30,2006.

During this reporting period the OIG Audit Section issued 22 reports on a wide variety of
topics, including audits of State commissions, and National Direct and Senior Corps
grantees. We also examined a number of Corporation operations, including procurement,
internet use and management controls and hurricane relief mission assignments from the
Federal Emergency Management Agency.

Our Investigations Section closed 30 cases, opened 37 new actions and recovered more than
$268,000 in taxpayer funding while identifying an additional $1.76 million in potential
recoveries that can be reinvested in National Service. Major investigations by OIG agents
included a Georgia case in which we teamed with Corporation officials to win an important
conviction and a Michigan case that led to the strengthening of that State's criminal
background check program.

We continued our proactive efforts to improve the OIG's efficiency and effectiveness. Major
efforts included the establishment of a Forensic Investigation Lab that has already proven
itself an effective tool against computer related crime and a major upgrade of our information
technology systems. We also fully implemented a new performance-based employee
appraisal system.

We are proud of the varied and innovative efforts undertaken by the OIG during this period
to detect and prevent waste, fraud and abuse. All of our work directly supports the
Corporation's mission of expanding opportunities for service and maximizing the impact of
every Federal tax dollar invested in its programs.

Sincerely,



Robert Shadowens
Deputy Inspector General




                                              *
                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                                                                                       U  SAgE
                                                             *
                      202-606-9390 + Hotline: 800-452-8210 www.cncsig.gov
                                                                                       Freedom Corns
                       Senior Corps *: AmeriCorps   * Learn and Serve America
                                                                                                    Table Of Contents


Executive Summary................................................................................................. 1
      Proactive Initiatives ..................................................................................................................... 1
      Audit Section ................................................................................................................................ 1
      Investigations Section................................................................................................................. 2
      About The Office Of Inspector General ..................................................................................... 2

Proactive Initiatives ................................................................................................. 5
      OIG Management Initiatives........................................................................................................ 7
      Coordination With Corporation Management ........................................................................... 8
      Outreach and Education ............................................................................................................. 8

Audit Section.......................................................................................................... 11
      Summary of Audits .................................................................................................................... 13
      Financial Management and Corporation Operations ............................................................. 13
      Grant Management and Oversight ........................................................................................... 14
      State Commission Audits ......................................................................................................... 14
      AmeriCorps National Direct Grant Audits ............................................................................... 15
      Senior Corps Grant Audits........................................................................................................ 16
      OMB Circular A-133 Quality Control Review........................................................................... 16
      Audit Resolution ........................................................................................................................ 17
      Management Decisions ............................................................................................................. 17
      Notices of Final Action .............................................................................................................. 18

Investigations Section........................................................................................... 21
      Summary of Cases..................................................................................................................... 23

Review of Legislation and Regulations ............................................................... 31
      Program Fraud Civil Remedies Act.......................................................................................... 33
      E-Mail And Other Records Retention Policies ........................................................................ 33

Statistical and Summary Tables ........................................................................... 35
      I.      Inspector General Act Reporting Requirements........................................................... 37
      II.     Reports With Questioned Costs ..................................................................................... 38
      III.    Reports With Recommendations That Funds Be Put To Better Use .......................... 39
      IV.     Summary of Audits With Overdue Management Decisions......................................... 40
      V.      Reports Described in Prior Semiannual Reports Without Final Action...................... 41

Fiscal Year 2006 Performance Information ......................................................... 43
                                                                 Executive Summary


 Executive Summary
Proactive Initiatives
 The OIG continued to take a proactive stance by undertaking numerous initiatives to improve its
 effectiveness and efficiency and to provide the Corporation with timely advisories and information on
 key issues involving its programs and operations. During this reporting period, the OIG launched its
 new Forensic Investigation Lab, giving our investigators an important new tool against computer-
 related crime. We also fully implemented an Employee Performance Management appraisal program
 that directly links compensation to performance and OIG strategic goals. Our Investigations Section
 continued to implement our Statutory Law Enforcement Authority, which includes the ability to
 execute search and arrest warrants and to carry firearms, with extensive agent training and
 equipment upgrades. Significant improvements were also made to our information technology
 systems, allowing OIG investigators and auditors to work more effectively and efficiently in their
 efforts to detect and prevent waste, fraud and abuse of taxpayer dollars.


Audit Section
 During this reporting period, the OIG Audit Section conducted audit and other work to improve the
 operations of the Corporation and issued 22 reports. A summary for each report issued is included in
 this semiannual report.

 Work ongoing during this reporting period includes:

     Senior Corps Audits

     •   Council on Aging of Volusia County, FL
     •   Kansas Big Brothers/Big Sisters

     AmeriCorps Audits

     •   Florida Commission
     •   Maryland Commission
     •   Utah Commission
     •   Mississippi Commission
     •   Texas Commission
     •   Home Instruction for Parents of Preschool Youngsters
     •   Public Allies, Inc.
     •   United States Veterans Initiative
     •   Teach for America (member compliance review)

     Corporation Operations

     •   Audit of the FY 2006 Financial Statements and Trust
     •   Follow-up Review of AmeriCorps Enrollment Procedures
     •   Study of Federal Assistance Monitoring Tools
     •   Fiscal Year 2006 Federal Information System Management Act Independent Evaluation
     •   Review of Seven Corners Health Benefits Administration Claims Processing Contract




 April 1, 2006 – September 30, 2006                                                             1
Executive Summary

     OMB Circular A-133 Audit Quality Control Reviews

     •   Quality Control Review of the Catholic Network of Volunteer Services OMB A-133 Audit
         Report performed by Cocchiaro & Associates


Investigations Section
 The OIG Investigations Section continues to investigate allegations of fraud, waste, and abuse of
 taxpayer dollars in Corporation programs and operations. During this reporting period, the
 Investigations Section received and processed 115 Hotline contacts, opened 37 investigative actions,
 and closed 30 actions. Seven matters were referred to the U.S. Department of Justice for
 prosecution. Seventy-five other matters were referred to Corporation management and State
 commissions for action. Investigators were responsible for recovering $268,839.10 in Corporation
 funds and $74,586.35 in cost avoidance. Based on information presented to the Corporation,
 management debarred nine individuals from participating in Federal grant and procurement
 programs. In addition, ongoing OIG investigations have identified $1.76 million in potential
 recoveries.


About The Office Of Inspector General
 In 1993, Congress created the Corporation for National and Community Service (Corporation), along
 with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
 U.S.C. §§ 12501-681 (2004)). Our office is independent of the agency it oversees. Led by a
 presidential appointee, we conduct audits and investigations of Corporation programs, including
 AmeriCorps, Volunteers In Service to America (VISTA), the National Civilian Community Corps,
 Learn and Serve America, and Senior Corps.

 The OIG also examines Corporation operations, State community service programs that receive and
 distribute the majority of Corporation grant funds, and local recipients of subgrants.

 Based on the results of our audits, investigations and reviews, the OIG recommends Corporation
 policies to promote economy and efficiency. We also strive to prevent and detect waste, fraud and
 abuse of taxpayer dollars that have been invested in National Service.

 This semiannual report, as required by the Inspector General Act of 1978, details our work for the last
 six months of Fiscal Year 2006. It is being transmitted to the Chief Executive Officer of the
 Corporation, the Corporation’s Board of Directors, and Members of Congress. It will also be made
 available to the public.

 All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information
 Act. Our efforts are often aided by information supplied via the OIG Hotline (800-452-8210). The
 Hotline allows Corporation employees, grantees, program beneficiaries, and others to report
 concerns and suspected fraud.

 For more information on the OIG and its work, please visit our Internet website: www.cncsig.gov, or
 telephone us at (202) 606-9390.




 2                                                          April 1, 2006 – September 30, 2006
           CORPORATION FOR NATIONAL AND
                COMMUNITY SERVICE

  OFFICE OF INSPECTOR GENERAL

                            Hotline

                                        We Want You to
                                      Report Fraud, Waste
                                         and Abuse!




                   ♦    All information is confidential.

                   ♦    You may remain anonymous.


              1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsig.gov

                                 Or write:

                           OIG HOTLINE
  Corporation for National and Community Service
       1201 New York Avenue NW, Suite 830
               Washington, DC 20525
                                       Proactive Initiatives
                   In its ongoing effort to prevent and detect fraud, waste
                   and abuse in a timely manner, the Office of Inspector
                   General has taken a proactive stance to alert and inform
                   Corporation management and its national service
                   partners of issues and current and potential problems.
                   Our initiatives include analyses and reports by our Audit
                   and Investigations Sections, management advisories
                   and other communications, and outreach to all
                   Corporation stakeholders through our information and
                   education programs.        OIG management has also
                   developed a number of initiatives during this reporting
                   period to improve performance and efficiency and to
                   enhance employee job skills.




April 1, 2006 – September 30, 2006                                      5
                                                                    Proactive Initiatives

OIG Management Initiatives
 Areas for Improvement: During this reporting period Corporation management requested that we
 identify for them the areas where we thought they could improve. We reviewed all previous audits,
 reviews, and investigations and identified five areas for management improvement. The areas
 include corrective actions, training and institutional knowledge, monitoring and grantee accountability,
 information technology and human capital. In a meeting with senior management, we discussed
 some of these areas. Our audit plan and special investigative initiatives have been aligned with our
 findings.

 Forensic Investigations: The OIG Investigation Section created and began employing its new
 Forensic Investigation Lab as a tool against computer-related crime. OIG agents, who have
 undergone specialized training, utilize Forensic Tool Kit software and a Logicube Imager device to
 capture mirror images of the information contained on computer hard drives. The data is then mined
 to reveal financial data, e-mails, images and other documents which may be linked to instances of
 fraud, waste and abuse. Capturing a mirror image is crucial to maintaining the integrity and
 admissibility of evidence. The new lab and investigative tools were successfully used in several
 investigations during this reporting period, including a case that revealed violations of the
 Corporation’s computer access and use policies.

 Senior Corps Audits: The Audit Section completed a series of five Senior Corps audits that raised a
 number of recurring compliance issues for grantees using Corporation funds to operate Foster
 Grandparent and Retired Senior Volunteer Programs. Of the grantees’ claimed costs of more than
 $3.6 million, the auditors questioned more than $417,000, or 11.5 percent of the total. The audits
 found a lack of administrative oversight and record-keeping, including problems with documentation
 verifying the eligibility of volunteers and the children they served. We communicated these systemic
 deficiencies to Corporation officials, who have established work groups to address the issues raised
 by the reports.

 Statutory Law Enforcement Authority: The OIG Investigations Section continued to work on full
 implementation of the expanded law enforcement authority approved on January 10, 2006, by
 Attorney General Alberto R. Gonzales. This authority allows OIG Agents to make arrests, seek and
 execute arrest and search warrants, and carry firearms in the course of their official duties. The OIG
 sought the authority to lessen its reliance on local police and other officials for backup when its
 agents are in the field probing allegations of fraud, waste and abuse of Federal funds. During this
 period, OIG agents underwent extensive physical fitness evaluations and firearms training. Facilities
 were also upgraded to enhance safety and security.

 Employee Performance Management Program: OIG senior managers fully implemented a new
 employee appraisal program that directly links compensation to performance and positive results.
 The new Performance Management Program is a yearlong, continuous, and collaborative process.
 The “whole” employee is evaluated on his or her contribution to achieving the OIG’s mission and
 organizational goals. The performance management cycle, which has replaced the old “pass-fail”
 method of evaluating employees, runs from January 1 through December 31. It includes
 performance planning, monitoring employee performance, developing employees’ knowledge and
 skills through training, and rating and rewarding performance.

 Technology Upgrades and Enhancements: Under the leadership of the Chief Technology Officer,
 the OIG continued to implement a network improvement plan. It will transform the OIG’s computer
 network into a real-time information management system capable of seamlessly collecting,
 processing and providing data. Phase 1, an upgrade of hardware and software to a level consistent
 with a modern business environment, was completed during this reporting period. Work on Phase 2
 began with the establishment of a Management Information System Team consisting of OIG auditors,
 investigators and support personnel. It is reviewing and re-thinking all aspects of how the OIG
 conducts business. The team, which has also reviewed other Federal OIGs’ audit and investigative


 April 1, 2006 – September 30, 2006                                                                7
Proactive Initiatives

 programs, will make recommendations to streamline our workflow, reduce duplication and improve
 our document control process.

 Staff Training: The OIG continued to conduct an ambitious and wide-ranging staff training program,
 with the goal of having each employee complete a minimum of 40 hours of professional development
 each calendar year. During this reporting period, OIG management and staff completed more than
 2,174 hours of instruction at the Federal Law Enforcement Training Center, Inspector General Auditor
 Training Institute, Inspector General Criminal Investigator Academy and numerous other vendors.
 Topics ranged from criminal investigator and firearms training to professional development courses
 on government standards and other audit procedures. In addition, OIG staff conducted classes for
 their peers on legal issues, investigative and audit procedures and report writing. By capitalizing on
 in-house skills, the OIG can offer training that is cost-effective and can be tailored to meet immediate
 and changing needs.


Coordination With Corporation Management
 Cooperative Prosecution Effort: The Assistant Inspector General for Investigations (AIGI) joined
 with Corporation officials in achieving the conviction of a former Georgia Senior Corps program
 director who had embezzled more than $100,000 in taxpayer funds. The AIGI prepared evidence and
 presentation materials and advised the Federal prosecutor throughout the trial. He also arranged for
 the expert testimony of several Corporation officials. The former program director was sentenced to
 33 months in prison, to be followed by three years of probation, and was ordered to make full
 restitution to the Corporation.

 Criminal Background Checks: The OIG continued to work with Corporation management and other
 stakeholders on strengthening criminal background check requirements for members who serve with
 children and other vulnerable persons. An OIG investigation led to the conviction of a former school-
 based AmeriCorps member and program director in Michigan who had legally changed his name in
 an effort to conceal a record of prior sex offenses. Moreover, this case resulted in a strengthening of
 Michigan’s criminal background check program.

 In the last reporting period the Corporation requested public comment for a Corporation regulation to
 codify set standards for criminal background checks for participants in the Corporation’s grant
 programs. The Corporation used the public input to draft a proposed rule, and is still waiting for final
 approval from the Office of Management and Budget to issue it for public comment.


Outreach and Education
 Fraud Awareness Briefings: The OIG continues to provide Corporation, grantee and subgrantee
 employees, and volunteers with information on how to identify, prevent and report waste fraud and
 abuse of taxpayer-funded resources. Investigators and OIG senior managers regularly provide these
 multimedia briefings as part of their field assignments and also provide them to meetings and training
 sessions conducted by Corporation grantees and other national service stakeholders. Topics include
 the role and mission of the OIG, common types of program fraud, and how to detect and report
 suspected abuses. During this reporting period, we conducted Fraud Awareness Briefings involving
 several hundred members, Corporation employees and program staff. This effort included
 presentations at the National Conference on Volunteering and Service in Seattle, WA.

 “For Your Inspection (FYI)”: During this reporting period, we published two editions of FYI, our
 quarterly newsletter that highlights the mission and work of the OIG and offers in-depth information on
 key issues facing the Corporation and its grantees. During this reporting period, FYI featured articles
 on our new forensic investigative capabilities and on the crucial importance of member file documents
 and proper record keeping in the audit process. FYI is widely distributed, in print and electronically, to
 Corporation employees, grantees, volunteers and other stakeholders.


 8                                                            April 1, 2006 – September 30, 2006
                                     Proactive Initiatives




April 1, 2006 – September 30, 2006                    9
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




April 1, 2006 – September 30, 2006                                     11
                                                                                                                     Audit Section


Summary of Audits
 During this reporting period, the OIG Audit Section issued 22 reports on a wide range of topics. Our
 work included audits of State Commissions, Senior Corps, and National Direct grantees. We also
 examined a number of Corporation operations, including procurement and FEMA hurricane relief
 mission assignments.



                                                  Audit Annual Performance Statistics
                                                                                               Fiscal Year
                                                                                         2004 2005 2006

                                 Number of audit reports issued annually                  23      21         40

                                 Questioned costs (dollars in thousands)                $836 $1,292 $3,475

                                 Value of recommendations that funds be put to better use
                                                                                          $0      $0 $3,185
                                 (dollars in thousands)
Financial                                                                                                         Management and
Corporation Operations
 Report 06-39 – Study of the Corporation’s Internet Use and Management Controls

 The study revealed apparent inappropriate Internet use on networked and non-networked
 Corporation-owned computers. It concluded that the Corporation should include its Network Rules of
 Behavior as part of its Policy 375 on Internet use and update both documents. The study provided
 observations, opportunities for improvement, and suggestions for change.

 Audit Report 06-40 – Review of the Corporation’s Office of Procurement Services

 Our audit found that Office of Procurement Services (OPS) employees did not consistently adhere to
 the Federal Acquisition Regulations (FAR) and the Corporation’s procurement policies. In some
 cases, OPS records were inaccurate, inadequate, or incomplete and FAR compliance could not be
 assured. Also, we identified several policies and assigned responsibilities that were not current and
 known by all OPS personnel.

 Report 06-42 – Review of the Corporation’s Purchase and Travel Card Programs

 Our review found that the Corporation generally has effective procedures and policies in place to
 identify and address delinquent employee travel and purchase card accounts. However, some
 policies and procedures need to be updated and improved. We also noted gaps in data and in the
 timeliness of reports that the Corporation is required to submit to the Office of Management and
 Budget (OMB).

 Data Collection Instrument – Corporation’s Response to OMB Memorandum M-06-16




 April 1, 2006 – September 30, 2006                                                                                           13
Audit Section

 On June 23, 2006 OMB issued memorandum M-06-16, which tasked executive agencies to ensure
 procedures are in place to protect Personally Identifiable Information removed or accessed or stored
 outside the agency location. The OIG was required to assess and report on OMB Memorandum M-
 06-16 compliance. The reporting was in the form of a Data Collection Instrument developed by the
 President’s Council on Integrity and Efficiency. We observed that the Corporation has developed a
 plan to integrate appropriate security controls over Personally Identifiable Information.

 Audit Report 06-43 – Agreed-Upon Procedures Review of the Corporation’s Federal
 Emergency Management Agency Hurricane Relief Mission Assignments

 This effort reviewed the Corporation’s policies, procedures, and standard guidance for processing
 billings and reimbursements for Hurricane Katrina mission assignments. We found that the
 Corporation did not return unused funds in a timely manner, did not obtain documentation to support
 requests for reimbursement in a timely manner and did not close out the mission assignments in a
 timely manner.


Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other not-for-profit organizations. Grantees are required to expend funds only
 for allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic
 and financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of
 grant awards.

 The Audit Section conducts audits of Corporation grantees to assess whether reported costs are
 allowable under Federal regulations and whether grantees are complying with the terms and
 conditions of their awards. Our reports on Corporation grants also include recommendations for
 correcting deficiencies. Typically, the recommendations call for grantees to reimburse questioned
 costs, establish and implement policies and procedures to prevent future instances of noncompliance,
 and improve internal controls. We also make recommendations for more effective Corporation
 oversight and improvements in grants management operations.

 During this reporting period, the OIG issued reports on seven State commissions, seven AmeriCorps
 National Direct Grantees and two Senior Corps grantees. The OIG also issued a Quality Control
 Review report on an OMB A-133 Audit.


State Commission Audits
 Audit Report 06-14 – Grants Awarded to the New York State Office of National and Community
 Service

 The Commission claimed costs of $34,453,824, of which the auditors questioned $289,560 as
 unallowable grant costs and $307,125 of education awards. The majority of the questioned costs
 occurred at one subgrantee, the YMCA of Greater New York. The auditors also noted instances of
 noncompliance with provisions of Federal laws, regulations and grant award provisions.

 Audit Report 06-23 – Grants Awarded to the Massachusetts Service Alliance

 Funding authorized for these grants totaled about $21.5 million, with costs claimed totaling about
 $10.1 million from April 1, 2002, through March 31, 2005. The audit identified questioned grant costs
 totaling $35,993. Most of these costs were questioned because documentation was lacking to show
 that criminal background checks had been completed for members who had contact with children or
 because living allowance costs were not supported by payroll registers. The auditors also questioned


 14                                                        April 1, 2006 – September 30, 2006
                                                                                 Audit Section

 non-grant costs of $25,096 with regard to education awards. The report includes six findings with
 recommendations to improve compliance with grant requirements and to improve internal controls.

 Audit Report 06-30 – Grants Awarded to the Tennessee Commission on National and
 Community Service

 Funding authorized for these grants totaled $7.9 million, with costs claimed totaling about $4.5 million.
 The audit identified questioned costs totaling $22,661, most of which were attributed to Promise
 Fellows Grant costs claimed for living allowances of members who served less than the required 12
 months. The auditors also questioned non-grant costs of $9,310 for members who did not serve
 sufficient hours to earn education awards. The report includes five findings and six recommendations
 to improve compliance with grant requirements and to improve internal controls.

 Audit Report 06-26 – Grants Awarded to the New Mexico Commission for Community
 Volunteerism

 Federal costs claimed by the Commission during the audit period totaled $3,453,178. The auditors
 questioned $111,833 of grant costs and related education awards of $54,398. The auditors also
 identified four issues of noncompliance with Federal laws and grant provisions, and two internal
 control matters, one of which is considered a material weakness.

 Audit Report 06-36 – Grants Awarded to Serve Idaho, Governor’s Commission on Service and
 Volunteerism

 The audit covered the latest two years of performance through December 31, 2005, for five grants
 initially awarded during the period January 1, 2002, to January 1, 2005. Funding authorized for these
 grants totaled $1.8 million, with costs claimed totaling about $1.5 million. The audit identified
 questioned costs totaling $17,910, most of which were attributed to unsupported living allowances
 and related fringe benefits, and costs claimed in the wrong grant period. The report also includes four
 findings and related recommendations to improve compliance with grant requirements and to improve
 internal controls.

 Audit Report 06-33 – Grants Awarded to the Oklahoma Community Service Commission

 Federal costs claimed during the audit period totaled $3,848,152. Of this amount, the auditors
 questioned $4,703 of grant costs and $372,686 in match costs. Some of the questioned match was
 claimed in excess of the minimum match required. The auditors also identified five issues of
 noncompliance with Federal laws and grant provisions and three internal control matters.

 Audit Report 06-37 – Grants Awarded to the Arizona Governor’s Commission on Service and
 Volunteerism

 The audit identified questioned costs of $9,507 out of the $1,962,389 claimed, and related education
 awards of $4,795. Most of the questioned costs were related to unapproved budget category
 changes, unmet match for living allowances, and hours recorded on timesheets that did not support
 eligibility for an education award. The report also includes four findings and related recommendations
 to improve compliance with grant requirements and to improve internal controls.


AmeriCorps National Direct Grant Audits
 Audit Report 06-12 – Grants Awarded to Education Works

 Education Works claimed costs of $5,266,112, of which the auditors questioned $100,600 as
 unallowable grant costs and a $2,195 education award. Costs questioned include $87,250 of costs
 for the New Jersey Substitute Teacher Corps, which provided substitute teachers to the Trenton


 April 1, 2006 – September 30, 2006                                                               15
Audit Section

 School District and duplicated the District’s own paid substitute teacher program. Other questioned
 costs include improper salary allocations. The auditors also noted instances of noncompliance with
 provisions of Federal laws, regulations and grant award provisions.
 Audit Report 06-17 through 06-22 – Grants Awarded to City Year through State Commissions

 06-17   City Year Grants awarded by the Massachusetts Service Alliance
 06-18   City Year Grants awarded by the Michigan Commission
 06-19   City Year Grants awarded by the Illinois Commission
 06-20   City Year Grants awarded by the District of Columbia Commission
 06-21   City Year Grants awarded by PennSERVE the Governor’s Office of Citizen Service
 06-22   City Year Grants awarded by the Texas Commission on Volunteerism & Community Service

 The total costs questioned in these six audits totaled $212,351. Most of the questioned costs are
 related to a lack of criminal background checks for members prior to their serving with children.


Senior Corps Grant Audits
 Audit Report 06-29 – Foster Grandparents and Retired and Senior Volunteer Program Grants
 Awarded to the Louisville Metro Community Action Partnership (Louisville)

 During the audit period, Louisville claimed $765,447 in grant costs for the Foster Grandparent
 Program, and $290,530 for the Retired and Senior Volunteer Program. Of these amounts, the
 auditors questioned costs of $16,171 and $5,441, respectively. The auditors also identified four
 internal control reportable conditions and four issues of noncompliance with Federal laws and grant
 provisions. None of these issues are considered material weaknesses.

 Audit Report 06-31 – Grants Awarded to the Kentucky Department for Mental Health and
 Mental Retardation Services

 Federal costs claimed by the Department during the audit period totaled $1,118,639. Of this amount,
 the auditors questioned $276,238 of Federal costs. The auditors also identified eight instances of
 noncompliance with Federal laws and grant provisions, all of which are considered material
 weaknesses.


OMB Circular A-133 Quality Control Review
 Report 06-34 – Quality Control Review of the Raffa, P.C., Certified Public Accountants, OMB
 Circular A-133 audit of the Council of the Great City Schools for the Fiscal Year Ended June
 30, 2005

 Raffa’s audit documentation for testing did not meet generally accepted government auditing
 standards (GAGAS) or the requirements in the OMB Circular A-133 and its related supplements for
 five of the compliance areas. The CPA firm disagreed with the OIG, stating that copies of
 documentation are not required to be included in the audit work papers. We noted in the final report
 that we did not recommend that copies of documentation be kept in the files. The findings are due to
 the fact that work papers did not adequately document the work performed and were used as a basis
 for Raffa’s conclusions.




 16                                                       April 1, 2006 – September 30, 2006
                                                                              Audit Section

Audit Resolution
 The Corporation's audit resolution process under Corporation Policy Number 101, Audit Resolution,
 consists of six steps that culminate in a Management Decision (MD) and completion of a Notice of
 Final Action on any corrective measures that management deems appropriate.

 Step 1: The OIG issues a draft report. The Corporation and auditee are given 30 days to comment.
 The OIG issues a final report after considering any comments received from the Corporation and the
 auditee.

 Step 2: The Corporation issues a Proposed Management Decision (PMD), which explains any
 corrective actions and provides a timetable for implementation.

 Step 3: Within 30 days of receiving the PMD, the OIG may provide written comments and may
 initiate additional discussions with Corporation management if the OIG does not concur with the
 PMD.

 Step 4: After reviewing any OIG comments, the Chief Financial Officer (CFO) issues a Management
 Decision (MD).

 Step 5: When all corrective actions in the MD have been completed, the Corporation issues a Notice
 of Final Action. A Notice of Final Action must be issued within 12 months of the date the audit report
 was issued.

 Step 6: Audits for which Final Action was not completed within 12 months of issuance are included in
 the OIG’s semiannual report. The Corporation then provides comments on the status of these
 incomplete actions and forwards this information to Congress.


Management Decisions
 A management decision is the Corporation’s response to an OIG audit’s findings and
 recommendations, and outlines a plan for corrective action. During this reporting period, the
 Corporation notified the OIG of the following management decisions:

     •   Audit Report 05-24, Grants Awarded to the (California) Governor's Office on Service and
         Volunteerism (GO SERV)

     •   Report 06-04, Agreed-Upon Procedures of Grant Awarded To Comprehensive Links For After
         School Enrichment

     •   Audit Report 06-08, Grants Awarded to the Northwest Regional Educational Laboratory

     •   Audit Report 06-10, Grants Awarded To YouthBuild USA, Inc.

     •   Audit Report 06-11, Grants Awarded to Mid-Willamette Valley Foster Grandparents Program

     •   Audit Report 06-13, Cooperative Agreements Awarded To ETR Associates, Inc.

     •   Report 06-15, Follow-Up Review of the Corporation’s Alternative Personnel System

     •   Audit Report 06-27, Corporation Grants Awarded to the Virginia Governor's Commission for
         National and Community Service




 April 1, 2006 – September 30, 2006                                                             17
Audit Section

Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed corrective
 actions. During this reporting period, the OIG received the following Notices of Final Action:

      •   Audit Report 05-10, Grants Awarded to the Nevada Commission for National and Community
          Service

      •   Audit Report 05-19, Grants Awarded to the Notre Dame Mission Volunteer Program Through
          the Maryland Governor's Office on Service and Volunteerism

      •   Audit Report 05-20, Grants Awarded to the Notre Dame Mission Volunteer Program

      •   Audit Report 05-21, Grants Awarded to the Iowa Volunteer Service Commission

      •   Report 05-22, Agreed-Upon Procedures of Grant Awarded to the Haddock AmeriCorps Cadet
          Program by the Georgia Commission for Service and Volunteerism

      •   Audit Report 05-24, Grants Awarded to the (California) Governor's Office on Service and
          Volunteerism (GO SERV)

      •   Audit Report 06-11, Grants Awarded to Mid-Willamette Valley Foster Grandparents Program




 18                                                        April 1, 2006 – September 30, 2006
                                                                                    Audit Section

                                             Audit Reports Issued
                                      April 1, 2006 – September 30, 2006
 Report                                                                   Dollars        Dollars       Funds Put To
                                  Report Name
 Number                                                                  Questioned Unsupported         Better Use
                                                                                   (Dollars in thousands)
  06-12     Grants Awarded to Education Works                                   $101              $0               $2
  06-14     Grants Awarded to the New York State Commission                       290           247              307
  06-17     Subgrants to City Year, Inc. Through the Massachusetts                  9             2                5
            Service Alliance
  06-18     Subgrants to City Year, Inc. Through the State of                      79             3               43
            Michigan Department of Career Development
  06-19     Subgrants to City Year, Inc. Through the Illinois                      82             0               57
            Commission
  06-20     Subgrants to City Year, Inc. Through The District Of                   25            25                0
            Columbia Commission
  06-21     Subgrants to City Year, Inc. Through PennSERVE, the                    16             3                5
            Governor's Office of Citizen Service
  06-22     Subgrants to City Year, Inc. Through the Texas                          1             0                0
            Commission
  06-23     Grants Awarded to the Massachusets Service Alliance                    36             2               25

  06-26     Grants Awarded to the New Mexico Commission                           112             0               54
  06-29     Grants Awarded to Louisville Metro Community Action                    22            21                0
            Partnership Foster Grandparent Program Retired and
            Senior Volunteer Program
  06-30     Grants Awarded to the Tennessee Commission                             23             0                9
  06-31     Grant Awarded to Kentucky Department for Mental                       276             0                0
            Health and Mental Retardation Services
  06-33     Grants Awarded to the Oklahoma Commission                               5             0                0
  06-34     Quality Control Review of Raffa, P.C., OMB Circular A-                  0             0                0
            133 Audit of the Council of the Great City Schools, Fiscal
            Year Ended June 30,2005
  06-36     Grants Awarded to Serve Idaho, Governor's Commission                   18             0                0

  06-37     Grants Awarded to Arizona Governor's Commission                        10             2                5
  06-39     Study of Corporation's Internet Use & Management                        0             0                0
            Controls
  06-40     Audit of Corporation's Office of Procurement Services                   0             0                0
  06-42     Review of Corporation's Purchase & Travel Card                          0             0                0
            Programs
  06-43     Agreed-Upon Procedures Review of the Corporation's                      0             0            2,490
            FEMA Hurricane Relief Mission Assignment Process

    ---     Data Collection Instrument/Response to OMB M- 06-16,                    0             0                0
            Protection of Sensitive Agency Information

                                      TOTAL                                  $1,103 *         $305          $3,001 *

*The difference between the total of the columns is due to rounding.



April 1, 2006 – September 30, 2006                                                                    19
                                     Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste, and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activities
                   involving the Corporation’s employees, contractors, and
                   grant recipients. Criminal investigations are presented
                   to the U.S. Attorney or, in some cases, the local
                   prosecutor for criminal prosecution and monetary
                   recovery. Some investigative reports are referred to
                   Corporation management for its administrative action or
                   information.




April 1, 2006 – September 30, 2006                                     21
                                                                                                 Investigations Section


Summary of Cases
 At the beginning of this reporting period, 28 investigative actions were pending in the OIG
 Investigations Section. During this reporting period, OIG investigators opened 37 investigative
 actions and closed 30 investigations. Thirty-five actions were pending at the end of the period.

                                                     Summary Of Cases
                   Opened and Closed
                    Cases Open at Beginning of Reporting Period                             28
                    New Cases Opened                                                        37
                    Cases Closed this Period With Significant Findings                      12
                    Cases Closed this Period With No Significant Findings                   18
                    Total Cases Closed                                                      30
                    Cases Open at End of Reporting Period                                   35
                   Referred
                    Cases Referred for Prosecution                                          7
                    Cases Accepted for Prosecution                                          6
                    Cases Declined for Prosecution                                          2
                    Cases Pending Prosecutorial Review                                      1
                    Cases Pending Adjudication                                              18
                   Recommendations to Management
                    Investigative Recommendations Referred to Management                    24
 Cases                                                                                            Closed This Period
                    Investigative Recommendations Pending this Reporting Period             4
 False                                                                                            Statement (06-013)
                    Investigative Recommendations Pending from Previous Reporting Periods   0
 Corporation                                                       management reported that a former
 AmeriCorps member submitted a fraudulent education award voucher to the Corporation. The
 investigation found the individual had forged the bank representative’s signature on his award
 voucher in an attempt to have the funds deposited directly into his bank account for his personal use.
 The U.S. Department of Justice accepted this investigation for criminal prosecution. The individual
 accepted a plea agreement and received three months of probation and forfeited his education award
 in the amount of $2,362.50.

 Forgery / Theft (06-011)

 Corporation management reported that an unknown person intercepted, forged and cashed three
 education award checks mailed to an educational institution. The OIG identified a suspect and
 notified the U.S. Secret Service, which assumed responsibility as the lead investigative agency. The


 April 1, 2006 – September 30, 2006                                                                                    23
Investigations Section

 U.S. Secret Service located the individual, who admitted to stealing the checks totaling $4,043.75.
 This matter was declined for prosecution by the U.S. Department of Justice and the funds were
 administratively recouped.

 Misapplication of Program Funds (06-020)

 An allegation was reported to the OIG Hotline that a new Corporation grantee had misapplied Federal
 program funds. The caller alleged that grantee management had utilized program funds to pay for
 trips and related expenses for friends of grantee board members. The caller also alleged that the
 program had no accounting system or policies in place and that management was shifting funds
 between the Corporation program and other non-Federal program accounts. Based on information
 obtained by the OIG, Corporation management determined that the costs were allowable and that the
 grantee had appropriate checks and balances in place to safeguard grant funds.

 Misuse of a Government Travel Charge Card (05-008)

 Corporation management reported that a Corporation employee had misused her Government Travel
 Charge Card. The investigation disclosed evidence that the employee misused her card to obtain
 cash advances and services that she was not authorized to receive. The employee also violated
 Corporation policy by failing to make payments on her account, resulting in a delinquency. Based on
 the results of the OIG investigation, the employee resigned prior to administrative action by
 management. The U.S. Department of Justice accepted this investigation for criminal prosecution.
 The individual agreed to a pretrial diversion and was ordered to make restitution in the amount of
 $2,689.99.

 Fraudulent Receipt of Education Awards (04-039)

 A State commission reported allegations that a program coordinator, with the approval of the program
 director, fraudulently enrolled staff employees in the AmeriCorps program, falsified their service
 hours, and qualified them for education awards. The investigation confirmed the allegations and
 disclosed that several of the employees had received and used their education awards. Furthermore,
 the OIG discovered evidence that the program coordinator also inflated other AmeriCorps members’
 service hours to allow them to earn education awards. Based on the OIG investigation, the
 Corporation recovered $51,982 from the grantee. This matter was referred to the U.S. Department of
 Justice for criminal prosecution. The program coordinator was indicted, but attempts to locate her
 have been unsuccessful. An arrest warrant has been issued. The Department of Justice declined to
 prosecute the program director.

 VISTA Stipend Checks Theft (03-016)

 Corporation management reported that an unknown person intercepted, forged, and cashed the
 AmeriCorps*VISTA stipend checks of a former VISTA member over a six-month period. A suspect
 was identified as the former program director. A joint investigation was conducted with the Federal
 Bureau of Investigation, which assumed responsibility as the lead investigative agency. The U.S.
 Department of Justice accepted this investigation for criminal prosecution. The individual plead guilty
 and was sentenced to five years’ probation and ordered to make restitution to the Corporation in the
 amount of $5,943.72. Based on information developed by the OIG and presented to the Corporation,
 management debarred the individual from participating in Federal contracts and grants for a period of
 three years.

 Database Security / Vulnerability and Internal Controls (06-041)

 A follow-up review was conducted on the Corporation’s security controls on employee access to a
 government information system. The review focused on the recommendations identified under OIG
 report number 05-057, issued in July 2005, and those corrective actions reported to the OIG at that
 time by management. The OIG found that several of the reported corrective actions had not been
 implemented by management. The OIG discovered that former employees continued to have active

 24                                                         April 1, 2006 – September 30, 2006
                                                               Investigations Section

access to the database. This condition could allow former employees’ access to sensitive data,
including personal identifying information on current and former members. Our 2005 report also
found users were not required to periodically change their passwords, as well as other potential
system vulnerabilities. Management had reported that a new system addressing several of these
issues was anticipated to be implemented in the fall of 2005. As of September 2006, it had not been
implemented.

As a result of this report, Corporation management admitted that it had failed to implement some of
the corrective actions it reported to the OIG in July 2005. Management also reported that it would be
integrating the database with another database early in fiscal year 2007, an action which would
address the password security issues.

Questionable Personnel Practices (06-026)

The OIG initiated an investigation to determine if Corporation management violated any personnel
regulations or policies when it authorized an employee to relocate from Washington, DC, to another
state for personal convenience. Additionally, after the employee relocated, management divided the
employee’s job description and hired another employee for the Washington, DC, location. The
investigation found that the relocated employee informed management about another employment
offer, but agreed to remain with the Corporation if she would be allowed to relocate at no cost to the
government. The OIG found no evidence that Corporation management violated any criminal laws or
personnel regulations or policies and also found that there was a valid requirement for the hiring
action.

Misuse of a Government Travel Charge Card (06-033)

Proactive efforts by the OIG disclosed that a Corporation employee misused his Government Travel
Charge Card. The investigation disclosed evidence that the employee misused his Travel Charge
Card to obtain $323.46 in cash advances that he was not authorized to receive. Based on the
information developed and presented to the Corporation, management issued the employee a letter
of reprimand.

Misuse of a Government Travel Charge Card (06-035)

Proactive efforts by the OIG disclosed that a Corporation employee misused his Government Travel
Charge Card. The investigation disclosed evidence that the employee misused his Travel Charge
Card to obtain $1,514.06 in cash advances that he was not authorized to receive. The U.S.
Department of Justice declined prosecution. Based on the information developed and presented to
the Corporation, management issued the employee a letter of reprimand.

Allegation of Education Award Fraud (05-040)

An allegation was reported to the OIG Hotline that a grantee had committed timesheet fraud. The
investigation found evidence that grantee officials had concurrently enrolled four of their employees in
AmeriCorps program, thereby allowing them to receive a total of $18,900 in education awards to
which they were not entitled. The information was supplied to Corporation management for action it
might deem appropriate.

Enrollment of Ineligible Members (05-034)

A State commission employee reported that an AmeriCorps grantee had had enrolled non-U.S.
citizens. The investigation found that the program could not provide proof of citizenship or legal
residency for one member, who had received $11,896.36 in unauthorized program funds. We also
found no evidence of required criminal background checks for two members, who had received a total
of $9,897.16 in unauthorized program funds. The information was supplied to Corporation
management for its action.



April 1, 2006 – September 30, 2006                                                               25
Investigations Section


 Cases Open at End of Period
 Violation of Voluntary Service Prohibition (06-039)

 A former employee reported that, following his retirement from Federal service, he worked in the
 Corporation’s Office of Human Capital (OHC) for several months as a contractor, but was never paid
 for his services. The investigation disclosed evidence that Corporation employees violated the
 voluntary services prohibition of the Antideficiency Act, which prohibits an officer or employee of the
 government from accepting the voluntary services of an individual, or employing unauthorized
 personnel services. The OIG discovered that an OHC employee failed to initiate a $20,000 purchase
 order for services to be provided by the former employee. This resulted in Corporation management
 having to ratify the transaction after services were rendered. Additionally, another Corporation
 employee failed to comply with Federal Acquisition Regulation, Part 5, when he failed to publicize a
 $15,000 purchase order modification to the existing $25,000 OHC purchase order.

 Theft of Program Funds (02-028)

 Corporation management reported that the executive director of a grantee was diverting Corporation
 program funds to cover personal expenditures and business expenses that were unrelated to
 program operations. The investigation found evidence that the executive director and her spouse, the
 program’s chief executive officer, had diverted a significant amount of Corporation funds. The U.S.
 Department of Justice accepted this investigation on March 11, 2003, for criminal prosecution.

 On June 19, 2006, the former executive director was found guilty of wire fraud and theft of Federal
 program funds. Her spouse was acquitted. On September 18, 2006, the former executive director
 was sentenced to 33 months of confinement, was ordered to pay restitution in the amount of
 $100,536.88, assessed $600 in court fees, and ordered to serve three years of supervised probation
 upon her release from prison. The OIG forwarded a recommendation for debarment of the former
 executive director to Corporation management.

 Fraudulent Receipt of VISTA Stipend (03-040)

 A Corporation State Office employee reported that a VISTA member left the program but continued to
 receive her living allowance, allowing her to collect a significant amount of Corporation funds to which
 she was not entitled. The investigation found that the former member’s program failed to verify
 member attendance and also failed to provide written documentation of member attendance in its
 biweekly reports. The U.S. Department of Justice accepted this investigation on November 25, 2003.

 On July 27, 2006, the former member entered a guilty plea to theft and was sentenced to 12 months
 of confinement (suspended), fined $2,500 (suspended all but $250), 24 months of probation, made to
 pay $25 in court costs and required to make restitution in the amount of $8,164.68. The OIG
 forwarded a recommendation for debarment to Corporation management.

 Misapplication of Program Funds (06-021)

 A State commission reported an allegation that an AmeriCorps site supervisor was withholding
 members’ living allowances. The investigation found evidence that the site supervisor had enrolled
 day care center employees in the AmeriCorps program to supplement their salary with program
 funds. Our investigation indicates the loss to the Corporation may be in excess of $100,000. This
 matter was accepted by the Department of Justice on May 17, 2006, for criminal prosecution.

 Misapplication of Program Funds (06-029)

 Corporation management reported that a director of a Senior Corps program misapplied Corporation
 program funds. Investigation found evidence that the project director wrongfully paid volunteer


 26                                                         April 1, 2006 – September 30, 2006
                                                              Investigations Section

stipend payments after he had placed the volunteers on administrative leave, claiming that he was
unable to find them volunteer assignments. In addition, the director falsified his and wife’s time
sheets, allowing them to receive payments to which they were not entitled. Loss to the Corporation is
approximately $250,000. This matter is being referred to the U.S. Department of Justice for civil
recovery. The investigation is ongoing.

Child Care Fraud / Violation of Program Policy (06-030)

Corporation management reported that a VISTA member had fraudulently received VISTA*Care child
care subsidies. Investigation disclosed evidence that a former VISTA member fraudulently enrolled in
the VISTA*Care program while receiving State child care subsidies during the same period. Further
investigation also disclosed that the former member had a position of employment while enrolled in
the VISTA program a violation of VISTA policy. Loss to the Corporation is in excess of $20,000. This
matter was referred to the U.S. Department of Justice on August 8, 2006, for prosecution.

Child Care Fraud (06-045)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the former
member fraudulently received AmeriCorps*Care program while receiving State child care subsidies
during the same period. The U.S. Department of Justice declined prosecution. This matter was
accepted for prosecution by the local States Attorney General’s Office, for criminal prosecution.

Child Care Fraud (06-046)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the former
member fraudulently received AmeriCorps*Care program while receiving State child care subsidies
during the same period. The U.S. Department of Justice declined prosecution. This matter was
accepted for prosecution by the local States Attorney General’s Office, for criminal prosecution.

Child Care Fraud (06-047)

Proactive efforts by the OIG disclosed evidence that a former AmeriCorps member fraudulently
received AmeriCorps*Care child care subsidies. Investigation disclosed evidence that the former
member fraudulently received AmeriCorps*Care program while receiving State child care subsidies
during the same period. The U.S. Department of Justice declined prosecution. This matter was
accepted for prosecution by the local States Attorney General’s Office, for criminal prosecution.

Theft of Program Funds (06-051)

Corporation management informed the OIG that a VISTA member alleged that she was required to
reimburse her site supervisor part of her living allowance. Investigation disclosed evidence that the
site supervisor fraudulently documented the member’s enrollment when, in fact, the member was
working directly for the subgrantee and/or enrolled in drug rehabilitation while being paid her VISTA
living allowance. Loss to the Corporation is in excess of $65,000. This matter was accepted by the
Department of Justice on August 29, 2006, for prosecution.

Theft of Program Funds (06-014)

An allegation was reported to the OIG Hotline that a VISTA program executive director enrolled
employees in the VISTA program to supplement the employees’ salaries and benefits. The
investigation found that the executive director and program director conspired to supplement two full-
time and one part-time employees’ salaries with VISTA program funds. Corporation management
has terminated the members’ service. Loss to the Corporation is in excess of $50,000. The U.S.
Department of Justice accepted this investigation on April 20, 2006, and is pursuing civil prosecution.



April 1, 2006 – September 30, 2006                                                              27
Investigations Section

 False Statements / Theft (05-048)

 The OIG investigated an allegation that a former AmeriCorps member, who later served as the
 program director, failed to disclose on his application that he had a criminal conviction. The
 investigation found evidence that the individual was allowed to serve in a school tutoring program
 after he omitted his previous name and falsified his personal information forms by claiming that he
 had never been convicted of a criminal offense. The investigation disclosed that the individual was a
 habitual sex offender and had legally changed his name after being released from prison. This
 deception, if known, would have disqualified him from serving with children as a member or program
 director. This deception also allowed the individual to fraudulently receive more than $106,000 in
 Federal program funds to which he was not entitled. The U.S. Department of Justice accepted this
 investigation for criminal prosecution. On April 4, 2006, the individual entered a guilty plea.
 Sentencing is pending.

 Theft of Program Funds (05-030)

 Corporation management reported that a former VISTA member was employed during his VISTA
 service. The investigation found evidence that the VISTA member intentionally deceived program
 officials by claiming that he was volunteering at a local school when, in fact, he was employed at the
 school as a teacher. This allowed the VISTA member to receive more than $20,000 in Federal
 program funds, including his VISTA stipend, to which he was not entitled. The U.S. Department of
 Justice accepted this investigation on July 19, 2005, for civil prosecution. On July 26, 2006, a civil
 agreement was reached with the individual, who agreed to repay $8,500 of the $20,395 he wrongfully
 received. The OIG forwarded a recommendation for debarment to the Corporation management.

 Theft of Program Funds (05-007)

 A State commission reported an allegation to Corporation management that an AmeriCorps grant
 recipient had misapplied Corporation program funds. The investigation found evidence that the
 AmeriCorps program’s director conspired with her cousin to defraud the U.S. Government when they
 prepared and submitted a fraudulent rental agreement in order to divert Corporation funds to cover
 the grantee’s share of program operating costs. The U.S. Department of Justice accepted this
 investigation for civil prosecution.

 Theft of VISTA Checks (04-017)

 Corporation management reported that an unknown person intercepted, forged and cashed two
 AmeriCorps*VISTA stipend checks from the U.S. Postal Service. The investigation disclosed that a
 postal employee cashed both checks. In February 2004, the OIG contacted the local U.S. Postal
 Inspection Service for assistance. Based on the information developed by the OIG, the U.S. Postal
 Inspection Service identified a postal employee as a suspect and also identified additional non-
 Corporation checks that had been similarly diverted. In March 2006, U.S. Postal Investigators
 obtained a confession from the employee and the individual was subsequently terminated. This
 matter was referred to the U.S. Department of Justice on June 20, 2006, for a prosecutorial decision.

 Theft of Government Services (Calling Card) (04-034)

 A Corporation employee reported an allegation that unknown persons were misusing a government-
 issued calling card. The investigation disclosed evidence that a former AmeriCorps member had
 obtained the calling card number during her term of service. After leaving the AmeriCorps program,
 the former member continued to utilize the calling card number to make personal telephone calls.
 Additionally, the member failed to safeguard the number, which was subsequently used by
 unauthorized personnel at various locations throughout the United States. The U.S. Department of
 Justice accepted this investigation for prosecution. On September 13, 2006, the individual accepted
 pretrial diversion, received 18 months of probation and agreed to make restitution in the amount of
 $1,420.48. The OIG forwarded a recommendation for debarment to Corporation management.



 28                                                        April 1, 2006 – September 30, 2006
                                                              Investigations Section

Theft of Program Funds (01-005)

The OIG investigated an allegation that a Senior Corps grantee used Corporation funds for purposes
other than support of the grant. The grantee acknowledged receiving more than $300,000 in
Corporation program funds, which it used for purposes other than support of the grant. The U.S.
Department of Justice initially accepted this case for criminal prosecution on November 26, 2001. On
September 4, 2002, the matter was transferred to its Civil Section for civil recovery under the False
Claims Act. There were no new developments during this reporting period.

Theft of Program Funds (02-007)

A State commission reported an allegation that a program executive director and a chief financial
officer misapplied program funds for their personal use. The investigation found evidence supporting
this allegation. Initially, the Federal Bureau of Investigation was the lead investigative agency but,
due to other commitments, was unable to pursue this matter fully. The U.S. Department of Justice
has declined to prosecute this matter in favor of local prosecution. The local prosecutor accepted this
matter on December 19, 2003, for criminal prosecution.

Theft of Program Funds (05-023)

A State commission employee reported that a former AmeriCorps grant recipient had informed her
that, during a post-program audit, it was discovered that the grantee’s former program director had
embezzled AmeriCorps program funds. Loss to the Corporation is in excess of $150,000. A joint
investigation was conducted with the Federal Bureau of Investigation, which served as the lead
investigative agency, and local law enforcement authorities. The U.S. Department of Justice
accepted this investigation for prosecution. The individual entered a guilty plea on November 14,
2005, and sentencing is pending.

Theft of Program Funds (05-041)

An allegation was reported to the OIG Hotline that a VISTA project director enrolled her employees in
the VISTA program to supplement the employees’ salaries and benefits. The investigation found
evidence that the project director conspired with her husband to fraudulently enroll their private
business employees in the VISTA program to supplement their salaries and benefits with Federal
program funds. The U.S. Department of Justice accepted this investigation on September 22, 2005,
and is pursuing civil prosecution.

Allegation of Education Award Fraud (05-049)

An OIG program review disclosed that an AmeriCorps grant recipient had falsified its members'
education award certifications. The investigation found evidence that the members’ time sheets
contained unauthorized service hours and did not match the total hours certified by program officials
to the Corporation to establish the members’ education award eligibility. The U.S. Department of
Justice accepted this investigation on February 27, 2006, and is pursuing prosecution.

Theft of Program Funds (05-054)

Corporation management reported an allegation that a grant recipient had misapplied Corporation
program funds. The investigation found evidence that the grantee’s executive director diverted
Corporation funds to cover non-grant expenditures and operating costs. The U.S. Department of
Justice accepted this investigation on September 27, 2005, and is pursuing civil prosecution.




April 1, 2006 – September 30, 2006                                                              29
                              Review of Legislation and
                                           Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The Office of Inspector
                   General reviews legislation and regulations to determine
                   their impact on the economy and efficiency of the
                   Corporation’s administration of its programs and
                   operations.        It   also    reviews    and    makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud and abuse in Corporation programs and
                   operations. The Office of Inspector General draws on
                   its experience in audits and investigations as the basis
                   for its recommendations.




April 1, 2006 – September 30, 2006                                     31
                                Review Of Legislation And Regulations


Program Fraud Civil Remedies Act
 In a prior reporting period, the Office of Inspector General (OIG) recommended to the Corporation
 that it promulgate regulations to implement the Program Fraud Civil Remedies Act (PFCRA). This
 Act, enacted in 1986, provides Federal agencies with an administrative means to recoup Federal
 funds of less than $150,000 that were unlawfully obtained by persons through false claims or false
 statements. During this reporting period the Corporation published for public comment a draft
 regulation to implement the PFCRA. The comment period expired in April, and the Corporation is
 currently waiting for approval from the Office of Management and Budget to issue the PFCRA rule in
 its final form. The OIG will continue to monitor the progress toward implementation of the final rule.


E-Mail And Other Records Retention Policies
 As noted in the two previous semiannual reports, the Corporation has no established policy for record
 retention and management, such as an instruction to employees on what should constitute a “record,”
 or how and where official records should be maintained, as required by 31 U.S.C. § 3101-02. Several
 investigations revealed that the Corporation lacked the ability to retain or retrieve e-mail
 communications that qualify as a government record, as required by 36 C.F.R. § 1234.26, Standards
 for Managing Electronic Mail Records. This regulation states that agencies’ policies should account
 for e-mail records, either by creating an electronic record keeping system according to specified
 criteria, or, “[i]f the electronic mail system is not designed to be a recordkeeping system, agencies
 shall instruct staff on how to copy Federal records from the electronic mail system to a record keeping
 system.”

 In April 2006, the Corporation solicited proposals from consultants with expertise in Federal records
 management for a contract to review the Corporation’s current record systems, draft a model record
 retention policy for the Corporation, and to provide a report to the Corporation on possible commercial
 off-the-shelf solutions for the management and retention of electronic mail. In July, the Corporation
 indicated to OIG that it anticipated making a final award for a contract in August. In September, the
 Corporation indicated that proposals were still being evaluated, and that it would inform OIG when an
 award was made. The OIG will continue to monitor this issue.




 April 1, 2006 – September 30, 2006                                                              33
                                             Statistical and
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




April 1, 2006 – September 30, 2006                                  35
                                                                                        Tables


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                31

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                   and deficiencies found in the administration of Corporation
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         41
                   has not been completed

      5 (a)(4)     Matters referred to prosecutorial authorities                        23

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period

      5 (a)(6)     List of audit reports by subject matter showing dollar value of      19
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      38
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      39
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        40
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector         None this
                   General disagrees                                                  period




 April 1, 2006 – September 30, 2006                                                           37
Tables


II.         Reports With Questioned Costs


                                                                           Federal Costs

                   Report Category                    Number Questioned                Unsupported
                                                                           (Dollars in thousands)
      A. Reports for which no management decision       11               $4,025                     $1,564
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period     16                1,103                       305

      C. Total Reports (A + B)                          27                5,128                      1,869

      D. Reports for which a management decision        5                 1,375                       453
         was made during the reporting period

         I. Value of disallowed costs                                       474                        82

         II. Value of costs not disallowed                                  901                       371

      E. Reports for which no management decision       22               $3,753                     $1,416
         had been made by the end of the reporting
         period (C minus D)

      F. Reports with questioned costs for which no     6                $2,650                     $1,112
         management decision was made within six
         months of issuance




  38                                                         April 1, 2006 – September 30, 2006
                                                                                      Tables


III.         Reports With Recommendations That Funds
             Be Put To Better Use

                     Report Category                   Number*       Dollar Value*
                                                                 (Dollars in thousands)
       A. Reports for which no management decision        0                $0
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period     11              $3,001

       C. Reports for which a management decision         0                0
          was made during the reporting period

          i. Value of recommendations agreed to by        0                $0
          management

          ii. Value of recommendations not agreed to      0                $0
          by management

       D. Reports for which no management decision       11              $3,001
          had been made by the end of the reporting
          period

       E. Reports for which no management decision        0                $0
          was made within six months of issuance




  April 1, 2006 – September 30, 2006                                                      39
Tables


IV.       Summary of Audits With Overdue Management Decisions


                                                     Federal    Mgmt.             Status at End of
      Report                                         Dollars   Decision           Reporting Period
      Number                  Title                 Questioned   Due                 (09/30/06)
                                                                              Proposed Management
       05-17   Audit of Louisiana Commission         $426,611      01/07/06   Decision (PMD) was under
                                                                              review by OIG.


                                                                              The PMD was under review by
       05-18   Agreed-Upon Procedures-Wyoming         216,868      03/02/06
                                                                              OIG.

                                                                              OIG was in discussion with
                                                                              Corporation Office of Grants
       06-05   Audit of Puerto Rico Commission        155,067      08/13/06
                                                                              Management (OGM)
                                                                              concerning PMD.

                                                                              A PMD had not been provided
       06-25   Audit of Illinois Commission          1,672,068     08/22/06
                                                                              to OIG.


                                                                              A PMD had not been provided
       06-24   Audit of Kansas City FGP               14,004       09/20/06
                                                                              to OIG.


                                                                              OIG was in discussion with
       06-16   Audit of City Year National Direct     165,229      09/24/06
                                                                              OGM concerning PMD.


                               Total                 $2,649,847




 40                                                       April 1, 2006 – September 30, 2006
                                                                                                    Tables


V.           Reports Described in Prior Semiannual Reports
             Without Final Action


     Report                                                                 Date            Final
     Number                              Title                             Issued        Action Due

       05-17                                               1               07/07/05         07/07/06
                  Audit of Louisiana Serve Commission


                  Agreed-Upon Procedures of the Wyoming
       05-18      Commission for National and Community                    09/02/05         09/02/06
                  Service


 1
     The Corporation extended the resolution period due to disruptions caused by the 2005 hurricanes.




 April 1, 2006 – September 30, 2006                                                                     41
                                        Fiscal Year 2006
                                Performance Information
                   The section summarizes the Office of Inspector
                   General’s accomplishments and performance measures
                   in support of OIG strategic goals.




April 1, 2006 – September 30, 2006                              43
                                                      Performance Information

Strategic Goals
The Office of Inspector General operates independently from the Corporation and seeks to achieve a
separate, but related, set of strategic goals. The OIG’s strategic goals are designed to promote
economy, efficiency, and effectiveness, and to prevent and detect fraud, waste and abuse, and
mismanagement in Corporation programs and operations. The general purpose of these goals is to
improve the Corporation’s ability to meet its responsibilities and achieve its mission.

Goal One:     Ensure that OIG activities support the Corporation’s mission by emphasizing
examinations of critical programs and operations.

Goal Two: Communicate effectively with the Corporation Board of Directors, senior management
and staff, grantees and sub-grantees, the public, Congress, and other parties as appropriate.

Goal Three: Strengthen the OIG’s ability and readiness to have maximum impact on the most
significant issues facing the Corporation and its programs.




April 1, 2006 – September 30, 2006                                                         45
Performance Information


                    Quantitative Audit Performance Measures
                                                         FISCAL YEAR
                                           2002   2003      2004       2005    2006
 Number of reports issued                  28      19        23         21      40

 Number of reports issued linked to         6      5          6         3       12
 improving Corporation management (OIG
 Goal One)

 Number of recommendations linked to       33      56        45         40      139
 improving Corporation management (OIG
 Goal One)

 Number of reports issued linked to        28      19        22         18      30
 protecting the integrity of Corporation
 programs, operations, and financial
 management (OIG Goal One)

 Number of recommendations linked to       181    140        139       142      179
 protecting the integrity of Corporation
 programs, operations, and financial
 management (OIG Goal One)

 Total number of audit recommendations     181    140        139       169      316

 Percent of recommendations accepted by    93%    93%       99%        99%     100%
 the Corporation




 46                                               April 1, 2006 – September 30, 2006
                                                         Performance Information


                        Investigations Performance Information
             Fiscal Year              FY 2002     FY 2003       FY 2004      FY 2005      FY 2006
    Investigative actions opened        40          42            42           57           58

    Investigative actions resolved      40           30            38           53           60
    and closed

    Average monthly caseload            24           26            28           37           38

    Investigative matters resolved      37           42            59           45           40
    without opening a separate
    investigative action

    Referrals for prosecution           10           9             8            20           12

    Investigative recoveries         $1,206,057   $123,988      $36,952      $234,691     $268,839

                   1                    $0        $158,038      $5,106        $2,363       $74,586
    Cost avoidance

    Administrative or management        25           23            8            24           20
    actions taken


1
  Cost avoidance was not calculated until FY 2003. Cost avoidance includes those predictable costs
that were not incurred due to OIG investigative intervention.




April 1, 2006 – September 30, 2006                                                           47
      Learn More About OIG
       Investigations And
         Audits With Our
     Downloadable Brochures




                         Subscribe To Our Newsletter,
                          “For Your Inspection” (FYI)



                        For More On The Role And Work
                          Of The Inspectors General,
                                    Watch
                        “The Inspectors General Story”
                         Featuring Senator John Glenn


All These Publications Can Be Found On Our Web Site
                 WWW.CNCSIG.GOV
